                                       Closeout A01050015

             In May 200 1, the NSF OIG received an anonymous allegation of                   and
     misconduct regarding a re~earcher,~   who has several proposals pending at the NSF. We
     contacted an administrative official3at the subject's university because a copy of the,3
     allegation was sent to the chancellor of the university. The university had looked into the
     allegation and did not find any information that would support the allegation. We also
     determined that the allegation was associated with a peer reviewed article not funded by
     NSF. Therefore, we will neither conduct nor defer any further inquiry.
             Thus, this inquiry is closed and no further action will be taken.

     cc: Investigation, IG




     1
         (Footnote redacted).
         (Footnote redacted).
'.       (Footnote redacted).


                                             Page 1 of 1
